<html>
<title> - HAITI: PROSPECTS FOR FREE AND FAIR ELECTIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




              HAITI: PROSPECTS FOR FREE AND FAIR ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 5, 2000

                               __________

                           Serial No. 106-133

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international_relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-166 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
              Caleb C. McCarry, Professional Staff Member
                    Marilyn C. Owen, Staff Associate
                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Peter F. Romero, Acting Secretary for Western 
  Hemisphere Affairs, U.S. Department of State...................     5

                                APPENDIX

Prepared Member's Statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    28

Prepared Witness Statements:

The Honorable Peter F. Romero, U.S. Department of State..........    30

Additional materials submitted for the record:

Questions submitted by Chairman Benjamin Gilman, together with 
  answer of Assistant Secretary Romero, concerning reactivating 
  Guantanamo Bay for handling refugees (Exhibit A)...............    34
Question submitted by The Honorable Brad Sherman, a 
  Representative from California, together with answer of 
  Assistant Secretary Romero, concerning comparison of money the 
  United States has spent on Haiti for economic aid and military 
  security or physical security, compared to money spent by other 
  nations on Haiti, especially as compared to money spent in the 
  former Yugoslavia (Exhibit B)..................................    35

 
              HAITI: PROSPECTS FOR FREE AND FAIR ELECTIONS

                              ----------                              


                        Wednesday, April 5, 2000

                  House of Representatives,
              Committee on International Relations,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10 a.m., in room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Present: Representatives Gilman, Brady, Ballenger, 
Gejdenson, Payne, Hastings, Sherman, Meeks, Lee, and Delahunt
    Also present: Representatives Conyers and Goss
    Chairman Gilman. The Committee will come to order. This 
morning our Committee will examine the prospects for free and 
fair elections in Haiti. Our witness is the Honorable Peter 
Romero, Acting Assistant Secretary of State for Western 
Hemisphere Affairs.
    This is the first time that our Committee is meeting in our 
refurbished hearing room. The new equipment you see includes 
advanced audio and video technology to take us into the 21st 
century. As a result, among other improvements, our audio feeds 
will be available in other Committee facilities. I am pleased 
that we will also be able to take testimony from witnesses in 
another city or on another continent.
    Last week, the House lost a good friend, Colonel Jack 
Brady, who worked for the House Foreign Affairs Committee for 
26 years, including 17 years as our Chief of Staff. Jack passed 
away last week.

    From 1976 to 1993, he was the personification of our 
Committee. Jack Brady was a man who took great pride in serving 
his nation, which he did with distinction in a number of 
arenas. I am asking my colleagues to join with me now in 
recognizing Colonel Brady's extraordinary service to this 
Committee and to the House with a moment of silence.
    Chairman Gilman. Thank you.
    I have supported U.S. engagement in Haiti during my career 
in the House of Representatives. There is a substantial 
community of hard-working Haitian-Americans in my district. I 
will continue to support U.S. assistance for the people of 
Haiti.
    Yesterday, my colleagues, Mr. Goss, Mr. Rangel, and Mr. 
Conyers, who I am pleased is here with us this morning, and Mr. 
Delahunt, joined me in issuing the following statement:
    ``As long-time supporters of Haiti and its people, we are 
outraged by the recent political assassinations in that 
country. Yesterday, the Director of Radio Haiti-Inter, Jean 
Leopold Dominique and Jean-Claude Louissaint, the radio's 
janitor, were murdered. On March 28th in Petit-Goave, a local 
leader of the Patriotic Movement for National Salvation, MPSN, 
Mr. Legitime Athis, and his wife were murdered in their home.
    ``Over the last month, the political situation in Haiti has 
deteriorated sharply, threatening to derail considerable 
progress made by the Provisional Electoral Council toward 
holding free and fair elections, and re-establishing a 
functioning legislature and local councils. In addition to 
political assassinations, orchestrated violent street riots 
have erupted. We strongly urge Haitian President Rene Preval to 
restore public order and unequivocally signal that these 
attacks on the electoral process will not be tolerated by 
immediately launching credible, thorough investigations of 
these crimes.
    ``The Organization of American States has urged the Haitian 
government and the Provisional Electoral Council to agree to 
`an election date that will allow the National Assembly to 
convene on the second Monday in June'.
    ``The Provisional Electoral Council is making the necessary 
arrangements to meet this deadline. Time is of the essence. 
President Preval must act now to work with the Provisional 
Electoral Council to set a firm date for the election as the 
OAS has urged.
    ``The Haitian people have come too far to see their hopes 
and dreams for a peaceful, prosperous, and democratic country 
destroyed. While we understand the difficulty of organizing 
elections, failure to hold them this month will seriously 
jeopardize the hard-won support for Haiti presently held by the 
American people and the international community.
    ``The moment is fast approaching when the inter-American 
community must invoke the 1990 'Santiago Commitment to 
Democracy and the Renewal of the Inter-American System', 
Resolution 1080, which provides for an emergency meeting of the 
OAS foreign ministers to decide upon specific collective action 
when democracy is threatened. We pray that the Haitian 
government will take the immediate steps needed to avoid this 
outcome, which would signify an end to the support of the 
United States and the international community so crucial for 
Haiti's future.''
    There are few moments in history where Haiti has stood so 
starkly at a crossroad. The signs are as clear as they are 
disturbing. Haiti's leaders and people must not misunderstand 
the seriousness of our resolve and our purpose.
    We must act now to protect American interests in Haiti.
    [The statement of Chairman Gilman appears in the appendix.]
    Chairman Gilman. Before recognizing our Ranking Democratic 
Member, I am going to call on our Chief of Staff for a moment 
to just review for you a little bit about our new equipment.
    Dr. Garon.
    Mr. Garon. Thank you, Mr. Chairman. Just very briefly, the 
Members will notice first off that we have new microphones. 
These are state-of-the-art, trying to bring the sound a lot 
more clearer to them. They have their own individual speakers. 
The red obviously is on and when you're done speaking, you 
would just hit the button to turn off the mic.
    We have two screens on the side, 50-inch screens that will 
be able to pick up various pictures controlled from the console 
in the back. There are two cameras in the back and one right 
behind the Chairman. There is a temporary screen behind us. We 
will have a new one installed this weekend that will drop down, 
as a monitor, and this screen will also be able to be tucked up 
into the ceiling. The white squares right next to the screens 
on each side are the sound speakers, and you may also see in 
the corners the black rectangles. Those are the infrared 
emitters that will be able to pick up transmission and can 
convey translation, little devices that we have for the 
Members, when we have meetings in here that require 
translations.
    As the Chairman indicated, next week we will have a video-
conference with leaders from the European Parliament, and for 
the Members of the Committee, we will have an orientation 
session Tuesday, April 11, at 4 o'clock in this room, where we 
can get into some more of the specifics.
    Chairman Gilman. Thank you, Doctor Garon. Please make note 
of that date for the orientation session, and our chance to use 
our new equipment.
    I am now pleased to call on our Ranking Minority Member, 
the gentleman from Connecticut, Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman, and I would like to 
join you in remembering Jack Brady, who we all worked with for 
so many years. I know that Jack, in his last years, had a great 
time regularly playing golf with my own senior Senator, Senator 
Dodd, and on one occasion at least Senator Dodd brought him to 
a golf game with the President that Jack really enjoyed. He was 
a good soul, committed to America's foreign policy and our 
interest, somebody who worked hard for the Members for all the 
years he was here, and I considered him a friend. So I join you 
in that remembrance.
    I also join you this morning in your view on Haiti. There 
is no question that in the United States there is a clear 
expectation that Haiti should have elections, they should occur 
as quickly as possible and meet the June dates. There are 
13,000 officials in rural municipalities at all levels seeking 
office. This is not a time for Haiti to turn backward; it is a 
time for it to take a step forward.
    Some of the recent violence, of course, is very 
frustrating, and we would expect former President Aristide to 
use his popularity to make sure that any violence that may be 
coming from his party be put to an immediate end.
    The people of Haiti have suffered for so long. They are 
among the poorest, most densely populated country in our 
hemisphere, and we are not at a point where we can afford to 
abandon this policy, and we expect the Administration to make 
it very clear to the Haitian government that we expect these 
elections to occur in a timely manner.
    The political advantage for one or another party in trying 
to change the election cycle would have a damaging impact on 
Haiti, and it is critical to take this democratic step at this 
time. It is already late, but we still have time to succeed, 
and I certainly hope that the Administration does everything it 
can to press the Haitian government.
    Chairman Gilman. Are there any other Members seeking 
recognition?
    Mr. Payne. Mr. Chairman.
    Chairman Gilman. Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman. Let me just 
be very brief and commend you for holding this meeting. We had 
one in November, and I am glad to know that we are concerned 
about what is happening in Haiti. I am glad that we are joined 
by Mr. Conyers, the Ranking Member of the Judiciary Committee. 
He has spent a tremendous amount of time and has visited Haiti 
on a number of occasions, and probably because he is not a 
Member of this Committee did not feel he ought to speak. I just 
want to say that we are really grateful for the interest that 
he has shown and the initiatives that he has taken in relation 
to Haiti.
    I traveled there about a dozen times myself, and the last 
trip in September was under the leadership of Mr. Conyers, with 
Mr. Hilliard, Mr. Campbell, Mr. Faleomavaega, and Ms. 
Christensen, and we met with President Preval, Candidate Jean 
Bertrand Aristide, and Colin Granison, who is the head of the 
U.N. OAS Civilian Mission, as well as many Members of the Civil 
Society.
    At that time, we did express our concerns to former 
President Aristide that elections would not be held in a timely 
fashion. We were hoping that the elections could be held to 
seat the new Parliament by mid-June. As we know, that is 
approaching. There have been problems, of course, with 
registration, but we are happy to hear that ID cards have been 
distributed--I understand about three million. Of course, they 
really have laminated photo ID cards, pretty sophisticated. We 
haven't gotten to that point in New Jersey yet, but I am glad 
that it is felt necessary there, which was, of course, a 
problem because of the difficulty of getting this done.
    But we are certainly hoping that the elections can move 
forward, and we would be very happy to hear the witnesses and 
the questions. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Payne. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I am pleased that 
you called this particular hearing. I really think it is 
important, and I am glad to see the Ranking Member of the 
Judiciary Committee, who has made such an investment of time 
and passion and dedication to Haiti.
    My first trip with him was back when I first came to 
Congress--I think I was here maybe 4 months--and Mr. Conyers 
invited me to Haiti with him. I think I have accompanied him on 
most trips to Haiti at this point in time.
    When we were last in Haiti, which I think was sometime in 
February, we were hopeful that the March 19th date for 
elections would be respected. Clearly, we were also informed at 
that point in time that there could very well be an extension. 
While we were disappointed an extension was necessary to April 
9, to receive the news that the April 9th date then could not 
be complied with but was indefinitely delayed has really 
created, I believe, a situation where the OAS, in some 
statements by representatives of that organization, that Haiti 
should be declared a nondemocratic state have to be considered. 
If there is not in a matter of days some reassurance that there 
will be a date specified again, I want to be very careful in 
not suggesting responsibility or culpability on any particular 
party, but this has simply gone on too long. The reality is 
that democracy is at great risk in Haiti, and I would hope that 
the political leadership of Haiti--and by that I mean all 
parties and not just political parties, but all segments of the 
community, come together and take action and agree to a date 
specific.
    I mentioned to you, Mr. Chairman, I am working on a 
resolution which would endorse the OAS' indication of the 
Santiago Commitment, and I will present that to you and to 
other Members for your review and, if we don't have a date 
certain, I would hope that that particular resolution would be 
marked up. I yield back.
    Chairman Gilman. Thank you, Mr. Delahunt. We certainly 
would want to move forward on your resolution. Any other 
Members seeking recognition?
    [No response.]
    If not, we will now proceed with our witness.
    Chairman Gilman. Appearing before us today as our witness 
is Assistant Secretary of State for the new Western Hemisphere 
Affairs Bureau at the State Department, former Ambassador Peter 
Romero. A 23-year career diplomat, Ambassador Romero previously 
served inter alia as principal Deputy Assistant Secretary, U.S. 
Ambassador to Ecuador, and Charge of our Embassy in San 
Salvador. We welcome you today, Mr. Ambassador. You may put 
your full statement in the record and summarize whatever you 
deem appropriate. Please proceed.

 STATEMENT OF THE HONORABLE PETER F. ROMERO, ACTING ASSISTANT 
 SECRETARY FOR WESTERN HEMISPHERE AFFAIRS, DEPARTMENT OF STATE

    Ambassador Romero. Thank you, Mr. Chairman. I am pleased to 
testify before the Committee today to discuss recent 
developments in Haiti and our mutual efforts to promote 
positive change here.
    This hearing is well timed since upcoming weeks are crucial 
to the mutual efforts to promote democracy and development in 
that country.
    I have submitted, as you mentioned, a statement for the 
record, but I would really like to share a few brief thoughts 
with you and Members of the Committee.
    Chairman Gilman. Without objection, your full statement 
will be made part of the record.
    Ambassador Romero. Thank you. First of all, Mr. Chairman, 
let me applaud your efforts and those of your colleagues in 
submitting this letter to the Haitian government. We, too, 
share 100 percent the sentiments expressed in those letters 
with respect to violence and setting a date for elections. 
Quite frankly, Mr. Chairman, I could not have drafted a better 
letter. I think it encapsulizes and enshrines the concerns of 
all of us in this room.
    Since the early 1990's, a pivotal component of our policy 
has been the strength in the democratic institutions that can 
foster Haiti recovery and development. Certainly when the 
Preval government was seated in office, it gave great promise 
to the Haitian people--one elected government turning over 
power to another elected government which, in Haiti's history, 
was the first time that that had happened. It was a watershed 
event. Now the prospects for that democratic opening and that 
democratic maturization are beginning, unfortunately, to erode.
    Notwithstanding out support for democracy and development, 
there was the seriously irregular 1997 election which has 
resulted in the resignation of the Prime Minister, the 
subsequent cancellation of 1998's legislative and local 
elections, January 1999's dismissal of the Parliament by 
President Preval, and extra constitutional rule in Haiti since 
then.
    Haiti today is a divided house, paralyzed from within, with 
progress since 1994 in democratic institution strengthening, 
economic recovery and development severely hampered.
    Lack of Parliament and local government for 15 months and 
the continuing failure of President Preval to hold elections to 
restore them thwarts strongly expressed Haitian desires to 
participate in a democratic process. In fact, Mr. Chairman, 
what we are seeing in Haiti today is truly an election fever. 
Voter registration for elections previously set for March 19th 
has encompassed almost four million Haitian citizens newly 
registered, or about 90 percent of eligible voters. Twenty-nine 
thousand candidates representing a broad spectrum of political 
parties have registered to compete for 10,000 local, regional 
and national posts. This is truly spectacular.
    Election fever, fueled by candidate debates, poll-watcher 
training, Haitian media attention, and the presence of election 
information centers spreads from Port-au-Prince to 
geographically isolated Haitian villages.
    Today, Haiti's homegrown political crisis has spread to 
include street demonstrations and violence. We are truly 
shocked by recent killings, including that of noted journalist 
Jean Dominique. These apparent efforts to disrupt elections are 
extremely troubling both to the people of Haiti desiring to 
express their democratic rights, and to the government of the 
United States in support of that desire.
    Equally troubling has been the failure of the Haitian 
government to set a new date for elections, particularly in 
time for a new parliament to be constituted by the beginning of 
the legislative session set for June 12th, as mandated by the 
Haitian constitution.
    Messages sent by our government to the GOH regarding the 
importance and urgency of these elections have been clear and 
unequivocal. Failure to constitute a parliament by June 12th 
risks isolating Haiti from the community of democracies and 
jeopardizes future cooperation.
    Mr. Chairman, fellow Members of the Committee, there is a 
meeting underway now before the Permanent Council of the 
Organization of American States to debate what is happening in 
Haiti today, and with the aim of sending the Secretary General 
of the Organization of American States, Caesar Garviria, to 
that country as soon as possible to take an assessment and to 
report back to the Permanent Council to determine what future 
action may be taken.
    The government of Haiti must, and can, commit itself to 
work with the Provisional Electoral Council to support the 
financial, logistical and security support for free, fair and 
security elections.
    Electoral-related violence must cease immediately. The 
legitimacy of Haiti's Presidential elections later this year 
relies on credible separate elections this spring.
    U.S. policy has been announced publicly and communicated 
directly in a repeated fashion by Administration officials to 
the government of Haiti and Haitian national political leaders.
    We are working with others in the international community 
to deliver similar messages. I will address the Permanent 
Council, as I mentioned, hopefully later on this morning. I 
feel that there are no excuses that remain for Haiti not to 
hold credible elections, only the political will seems to be 
lacking.
    Cooperation with the Committee is paramount to achieving 
our goals in Haiti. Engaging in Haiti, however fatiguing or 
frustrating, must continue.
    I look forward to frank exchanges and to work with you to 
do what we can, Mr. Chairman, fellow Members of the Committee, 
so that Haiti follows a democratic path and will continue 
toward its overall development.
    Thank you, Mr. Chairman.
    [The statement of Ambassador Romero appears in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Secretary. I realize the 
Secretary will have to leave by 11:30, so we will ask our 
Members to please be brief in their questioning.
    I am informed, Mr. Secretary, that the Provisional 
Electoral Council is making the necessary arrangements to hold 
their elections in time to allow the National Assembly to 
convene on the second Monday in June, as urged by the 
Organization of American States. At this point, isn't the 
primary impediment to scheduling elections a lack of political 
will on the part of Haiti's President, Rene Preval?
    Ambassador Romero. Mr. Chairman, it is difficult to probe 
into the depths of President Preval's thinking on this, but let 
me just make a few comments.
    First of all, we believe that the CEP has done its due 
diligence. It has registered about 90 percent-plus of the 
electorate. There has been an overwhelming response, over 400 
people have newly registered. There are no longer lines. People 
who want to register have been able to register.
    We believe that the time is right. The perfect would be the 
enemy of the good here, and that they can conduct proper 
transparent, fair and honest elections by the end of this 
month, if the political will of the president were there.
    Chairman Gilman. Is the will there, or isn't it?
    Ambassador Romero. We haven't seen it yet, Mr. Chairman.
    Chairman Gilman. Isn't it true that unlike previous 
elections, a number of key Haitian parties have actively 
supported this election?
    Ambassador Romero. We have, I believe, most all political 
parties have registered candidates, have signed a Code of 
Conduct for certain minimal standards with respect to 
campaigning and the conduct of those campaigns and to abide by 
the elections. We believe the time has never been more ripe for 
elections, Mr. Chairman.
    Chairman Gilman. Mr. Secretary, is the government of Haiti 
or its political allies attempting to undermine, or perhaps 
even force, the Provisional Electoral Council to disband?
    Ambassador Romero. Mr. Chairman, there are all kinds of 
pressures in Haiti, whether they be threats of violence or 
actual violence. It is very difficult to say that the 
government is behind this. I don't see that we have any 
evidence of government intimidation of political parties.
    Chairman Gilman. At our December 1997 Haitian hearing, Mr. 
Hamilton, our Ranking Democratic Member at the time, asked 
Ambassador David Greenlee for his frank appraisal of Mr. 
Aristide. Ambassador Greenlee was reluctant to answer his 
questions.
    Let me pose to you Mr. Hamilton's question with the same 
request for your frank assessment from an American national 
interest standpoint. Is Mr. Aristide at this point being 
helpful or not being helpful?
    Ambassador Romero. Mr. Chairman, I would note that with 
respect to the Code of Ethics, one of the first parties to sign 
that Code of Ethics and a nonviolent pledge was ex-President 
Aristide and his party.
    We have spoken repeatedly with him, as we have President 
Preval and the heads of the other political parties, with 
respect to setting a date for elections. He has told us that he 
is in favor of elections. I have to say that we have to 
separate deed from word.
    We have asked him repeatedly to come out foursquare 
publicly in favor of elections, he has failed to do so thus 
far. He has given us his private assurances that and his party 
are ready to conduct these elections as soon as possible, but I 
haven't seen the public support that would be crucial to moving 
President Preval and getting the CEP machinery in place to hold 
these elections.
    Chairman Gilman. When our congressional delegation visited 
Haiti I think about a year ago January of this year--Mr. Goss, 
Mr. Conyers, Mr. Rangel, and myself--we were assured by both 
Mr. Aristide and Mr. Preval that they would make certain that 
there would be a fair an open election and that it would take 
place within the required time limits as set forth by the 
Electoral Council. It seems to me that they are not fulfilling 
that promise. What is your assessment?
    Ambassador Romero. Mr. Chairman, it looks like they, at 
least President Preval, have walked away or have attempted to 
walk away from commitments not only made to us but, more 
importantly, to the Haitian people.
    Certainly, this is something that we have engaged in with 
the Haitian government, with President Preval directly since he 
disbanded the Parliament in February 1999. It has been almost 
14 months since then.
    Certainly, at that time, he gave us a deep commitment on 
his part that he would convene a CEP, that he would organize a 
CEP, which he has; that it would be a good organization that 
would be balanced and have Members of political parties, but 
also people who are independents. He has. Those members of that 
body have done a yeoman job in putting together the necessary 
requirements to register and to print ballots and to provide 
for the proper atmosphere for campaigning.
    We had looked at the beginning of last year, we were given 
commitments that it would be as soon as possible. It dragged on 
until November. We have had successive dates established from 
November to February to March, and here we are in April with 
the June 12th constitutionally mandated date, looming over the 
horizon, and we still do not have fulfillment of the 
commitments, the repeated commitments, made to us by President 
Preval.
    Chairman Gilman. An apparent lack of will by President 
Preval to conduct the election. Mr. Gejdenson.
    Mr. Gejdenson. Ambassador, at the OAS meeting, what 
leverage do we have on the rulers in Haiti as compared--I mean, 
obviously we wouldn't want to do anything to cause pain to the 
average citizen already living in the worst conditions on the 
hemisphere. What is it that we can either individually or 
collectively do that would have an impact on either of these 
two gentlemen, Mr. Aristide and Mr. Preval?
    Ambassador Romero. That is a very good question, 
Congressman Gejdenson. I think that we will continue to put 
pressure. I would hope that we would be able to enjoy the 
support of Members of this Committee to continue to put 
pressure on President Preval, particularly in the crucial in 
the next week to 10 days to hold these elections.
    What we are attempting to do is to amplify the chorus of 
indignation of the international community, particularly in 
this hemisphere, that elections have not been set, that they 
have not been yet held, and that Haiti and the Haitian 
government is moving down an undemocratic path.
    Certainly, we have not been alone on this. The European 
Union, particularly France, other members of the OAS and the 
hemisphere individually have spoken out, but what we are hoping 
to do is set a process in place of review that would involve 
discussion of where we are, what we see and what the hemisphere 
sees as happening in Haiti now, to send the Secretary General 
down there to provide a hands-on assessment of what he sees, to 
come back to the Council, and then to determine what action 
might be necessary to include perhaps the convening of 
Resolution 1080.
    Mr. Gejdenson. Where does Aristide get his political base 
from at the moment? Where does his strength come from?
    Ambassador Romero. I think ex-President Aristide has 
enjoyed strength from across the political spectrum. In Haiti, 
it is very difficult to say that it comes from one group or 
another. Certainly, he enjoys widespread support with respect 
to the peasantry, but also others running the spectrum, to 
include the business classes and to include the Haitian exiled 
communities in New York and in Miami and elsewhere.
    Mr. Gejdenson. Does the business community have any sense 
that they would like to see these elections, or are they 
against moving forward with the elections? What is your sense 
on this?
    Ambassador Romero. I can only tell you that on the basis of 
what our Embassy reports, and folks who have been down there 
have reported, and my own visit down there about 9 months ago 
where I really saw the various chambers being enthused by the 
elections, for the first time engaging in the process, it was a 
dramatic, very positive thing to see in a country where 
engaging in politics, even campaigning, could be hazardous to 
your health. The business community down there was throwing 
caution aside, really engaging in this.
    There was some intimidation to stop it early on, that has 
stopped. I believe that the vast majority of the business 
sector, the private sector in Haiti is foursquare in favor of 
holding elections as soon as possible.
    Mr. Gejdenson. Thank you.
    Chairman Gilman. Thank you, Mr. Gejdenson and Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman, for holding this 
important hearing today. Like you, we are all concerned about 
the political situation in Haiti, and look forward to the time 
when we see free and fair elections in the country.
    Mr. Ambassador, thank you for being here today. I am 
getting a first-hand lesson in the way the government of Haiti 
acts, and I have serious questions about a particular incident 
regarding a company based in my district in Texas, Rice 
Corporation of Haiti.
    In short, the government of Haiti has seized the assets of 
this company. They have leveled trumped-up unspecified customs 
violations which this company didn't commit. This company now 
faces expropriation of their business by the Haiti State, under 
the guise of this customs dispute, the officials in Haiti have 
run the proprietors off their site. They've ransacked their 
homes and private businesses, to which they are not allowed 
access today. Threats have been made on their lives, forcing 
them to flee the country.
    Haiti has reneged repeatedly on agreements to settle this 
dispute despite the fact that this company prefers to resolve 
this and joins with the U.S. Embassy in seeking a fair and 
proportionate resolution to this issue.
    As a result, Senator Helms, the distinguished Chairman of 
the Foreign Relations Committee, has put a hold on all U.S. aid 
to Haiti until the situation is resolved. He is working on 
legislation along the same lines and, although I don't prefer 
that action, I am considering the same legislation until we get 
some action from the government of Haiti.
    Also along those lines, Senator Helms has recently written 
a letter to Secretary Albright, asking her to assess 
involvement of several Haitian officials to expropriate this 
money and property from this U.S. company.
    My question to you, Mr. Ambassador, is, what is the status 
of this assessment? Is the State Department prepared to deny 
those responsible individuals a visa, and can you tell me what 
the executive branch is doing to help resolve the crisis 
between Rice Corporation of Haiti and the Haitian government?
    Ambassador Romero. Thank you, Congressman Brady. First of 
all, from the beginning, the U.S. Embassy in Port-au-Prince and 
U.S. officials here in Washington--I being one of them--have 
moved aggressively to protect U.S. business interests and also 
to protect the safety of U.S. citizens down there, and we will 
continue, let me assure you, to do so.
    The Embassy at Port-au-Prince repeatedly contacted senior 
Finance Customs officials on RCH's behalf, as well as police 
and judicial authorities. Washington-based visitors to Haiti 
also raised the case at the highest level of the Haitian 
government with President Preval and Prime Minister Alexis.
    We have also reminded the Haitian government both in 
Washington and in Port-au-Prince that regardless of the 
specifics and possible fault, the way in which the RCH case has 
been handled feeds perceptions in the business community that 
due process does not exist in Haiti and that the Haitian 
government is hostile to private business interests. Certainly, 
the law enforcement and the judicial aspects of this case left 
a lot to be desired. We continue to put pressure.
    That said, there is a legal action pending in both U.S. and 
Haitian courts between two U.S. companies over the ownership of 
Rice Corporation Haiti, and we are awaiting the outcome of that 
development. I think the case is expected to be heard in Texas 
in May.
    Nonetheless, we continue to actively engage all parties to 
reach a settlement that is both fair and consistent with 
Haitian and U.S. law.
    Mr. Brady. Thank you, Mr. Ambassador. As you know, the 
legal action in the U.S. is frankly too complicated, and not 
much the business of Congress and the State Department. Initial 
actions by the Rice Corporation of Haiti's opponents were 
poured out summarily in a Texas District Court initially, and 
if I have two messages here for you, it is first, Haiti needs 
to understand Congress is not going away on this issue until it 
is resolved fairly and proportionately; and second, you have 
some good people working for you on the ground on Haiti. 
Phyllis Forbes and Ken Mertin have done a wonderful job on 
this, and Washington, D.C. Deputy Assistant Secretary Lino 
Gutierrez and Marcia Barnes, Director of Caribbean Affairs, 
have been very responsive, so please pass my thanks on to them.
    Ambassador Romero. Thank you, Congressman; messages 
received.
    Mr. Brady. Thank you.
    Chairman Gilman. Thank you, Mr. Brady. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I yield to my friend 
and colleague, Mr. Conyers.
    Mr. Conyers. Mr. Chairman, I want to thank Bill Delahunt, 
but I also want to get the permission of my colleagues here. I 
am a visitor here--should be waiting, but Bill knows we have 
Internet gambling coming up in Judiciary.
    Chairman Gilman. Mr. Conyers, we welcome having you here, 
and please proceed. You are Ranking Member on our Judiciary 
Committee and have long-term interest in Haiti, and we welcome 
your questioning.
    Mr. Conyers. Thank you very much, and to all of you who are 
here, we all join in in commending Ambassador Romero for the 
good job that he is doing.
    Now, I want to indicate that I join the chorus of those 
that are amplifying their indignation at the international 
level with the Family of Nations about the slowness of what is 
going on, but I just want to make sure that we don't trip over 
some very important realities here. There is no national police 
force, no national army in Haiti.
    We meet with the head of the National Police Force, Pierre 
Manuel, every time we are there. He gets great grades--he is an 
excellent commander. We meet every time with the former 
President, Jean Bertrand Aristide, and I think I can document 
that he has not just privately, but publicly gone on record 
repeatedly for elections, free and fair open elections as early 
as possible and, as you have indicated, Mr. Ambassador, he was 
the first to sign the agreement that there would be 
nonviolence.
    The problem that we are faced with is this: we need--short 
of any of us going back down there again, which we were 
preparing to do as observers for the election, we were all in 
place with bags packed--but we need to understand that there 
are some problems there. We met with the Chairman and the 
members of CEP and with President Preval.
    What I really need to know is exactly where are the 40,000 
personnel for the election, and where are we on that because we 
have a 75-percent illiteracy rate.
    We could be moving toward the biggest mess in terms of an 
important worldwide election that we have ever seen, trying to 
get that sort of thing. We saw the laminated photograph ID's, I 
think that has come off reasonably well, but the security of 
the records, the acquisition of 40,000 personnel, the training 
of them, and the distribution of the voting material at the 
right place and right time and then getting it back in a secure 
manner is something that we really don't want to just say call 
the date. I would like you to respond to that, and also ask if 
you do not agree with me that it was correct, in hindsight now, 
to have suspended the April 9th elections, that many of the 
things we were concerned about may have horribly come to 
fruition.
    So could you, from that perspective, give me responses to 
these comments, please, sir?
    Ambassador Romero. Thank you, Congressman Conyers. First, 
let me express the State Department's deep appreciation for 
your very direct and effective role in Haiti. You have, as we 
all have, been frustrated by the lack of progress, but you 
haven't let that get in the say and you continue to be a 
champion for democracy in Haiti, along with your colleagues, 
and let me just reiterate that we very much appreciate it.
    Congressman, I think that we can all find problems, some of 
them more significant than others, with respect to the 
organization by the CEP of the elections. With respect to your 
particular question, I believe that the CEP is on the verge of 
selecting all 40,000 campaign workers, where a couple of weeks 
ago they were pretty far away from it.
    Certainly, in all of the organization that has been done by 
the CEP and with much of our support, the support of IFIS, they 
have come a long way in the last 30 days; and I would say 
probably had the elections been held 30, 60, or 90 days ago, 
they probably would not have been, or would not be as good as 
they would be now, if we can get an election date set.
    Let me just reiterate a couple of reasons why we believe 
very strongly elections need to be held. First of all, I 
mentioned the election fever. Without holding elections, you 
will have a country that will have gone through an 
unprecedented registration process and groundswell of support 
for registration. You will have those democratic desires and 
hopes dashed.
    But even more importantly, we have seen about $400 million 
of IDB and World Bank money parked, waiting to be used in 
Haiti, for a couple of years now, and not being able to be used 
because there is no Congress to approve it.
    We have been very disappointed, as you have been, with the 
lack of judicial reform, and a lot of that is a direct result 
of the fact that there is no Congress to appoint new judges. 
There have been no elections to have new judges on the scene. 
There hasn't been a new judicial code in Haiti, which is very, 
very necessary.
    These are only just a few of the problems associated with 
not having a Congress. I think that the conditions are 
sufficient to have good, transparent, honest and fair 
elections.
    Mr. Conyers. Thank you very much, sir. I want you to know 
that I agree with every statement that you made in response to 
my question, but could you, by the end of the working day--they 
are going to be meeting tomorrow, and I presume, in my jaded 
senior way, that this hearing was called to help even motivate 
them further in addition to the Family of Nations outcry that 
is going on. But couldn't somebody--we have got a great Embassy 
there, and had several very good people there in charge--but 
couldn't somebody tell me before the close of business tonight, 
the CEP position of where they are right now? Couldn't 
somebody--I could pick up the phone and call President Preval 
myself--but in the line of the diplomatic relationships that we 
have, talk to him, and that we come forward with a hearing that 
specifically lists what the president of this beleaguered 
nation's problems are--they are one, two, three, four, five--
and the Chairman of the CEP and that Commission, who are a 
pretty independent group because they were appointed out of a 
conciliation of other parties and personalities in Haiti, so 
that even though the president appointed them, they are 
operating strictly on their own--and couldn't we come up with 
five or four points that have caused them this kind of angst 
that we now meet about?
    That way, we wouldn't be talking in the general way about 
the goals and problems and timetable that we are now, which are 
all quite accurate, but they don't--I would like to present to 
you if you don't present to me, a list of what President Preval 
has going on in his head that is the problem and that of the 
CEP, too. If we had that, I think we would be dealing with the 
specifics.
    Now, by tomorrow, I think tomorrow we will know--24 hours 
from now, we will know where they are and what they are doing. 
But could you help me get to the detail of this matter?
    Ambassador Romero. Congressman Conyers, you put your finger 
on an issue that is a moving target. Certainly, there is a lot 
of progress being made on an hourly basis in Haiti, and so when 
it comes to our attention issues related to selection of 40,000 
poll workers, et cetera, et cetera, we work through IFES with 
the CEP to move this ahead. Certainly, there has been enormous 
progress made over the last couple of days.
    Well over a week ago, our Embassy was convinced that good 
elections could be held. If there are remaining issues that are 
going to be teed up for the CEP meeting, the meeting between 
the President and the CEP tomorrow, I will get those to you.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Conyers. Thank you.
    Chairman Gilman. Mr. Ballenger.
    Mr. Ballenger. Thank you, Mr. Chairman. I think Mr. Conyers 
asked the question I really was going to ask you, on just what 
basic reason Preval might have for not wanting the elections. 
Is there some theory without actual facts, but some vision that 
has been created to understand that better? For those of us 
that haven't been there, I just really don't know.
    Ambassador Romero. Congressman Ballenger, it is good to 
have you here with us today, and again let me thank you for all 
the good work that you have done for us generally in the 
hemisphere. We know we can count on you, but also particularly 
in Haiti.
    It is hard to crawl into somebody's mind and get their 
motivation. Certainly, there have been very legitimate doubts 
raised based on specific issues, the likes of which Congressman 
Conyers raised.
    One has to step back and wonder, though, whether those are 
an excuse for moving ahead without a Congress. Certainly, when 
the Congress was abolished in February 1999 and there were lots 
of commitments that there would be elections soon, and the CEP, 
et cetera, to conduct them, we had believed that because of 
irregularities from the 1997 elections that were hampering the 
functioning of those two houses of congress, that there would 
be a new election to rectify those situations, and two new 
bodies established--or elections for representatives of those 
two bodies as soon as possible.
    We have seen our efforts dashed, and those of the Haitian 
people, political parties. One can conclude perhaps that 
President Preval believes that congresses are superfluous to 
democracy and that they are perhaps messy and that they hamper 
as opposed to enhance the democratic experience.
    Mr. Ballenger. Just it appears, when they had congress, 
nothing happened, they didn't accomplish anything. Then he gets 
rid of Congress and they don't accomplish anything, so we are 
going to have another election to elect a new Congress. Is 
there any reason to think that the country will be better off?
    Ambassador Romero. I think that when it comes to the basic 
tools of democracy, Congressman Ballenger, dialogue and 
compromise and that sort of thing, you don't move the situation 
along by having an abbreviated government running that country.
    Sooner or later, Haitians have to sit down and engage in 
constant dialogue the way we do in this body, and to engage in 
the kind of compromise and understanding and exchange that 
constitutes basic democratic principles. Until that happens, it 
is going to be an abbreviated democracy.
    Mr. Ballenger. Let me ask you just a straight out question. 
Have you received any reporting on who was behind the murder of 
the owner of Radio Haiti-Inter?
    Ambassador Romero. Let me say that we are shocked by the 
murder of one of Haiti's most well known radio and print media 
personalities, Jean Dominique. I have to liken it to the murder 
of the most popular talk show host in Colombia a couple of 
months back. It is a message that assassins and criminals and 
terrorists like to send through a society by murdering some of 
the best-liked people in that society, sending a chilling 
message to the Haitian people--in this case, the Body 
Politique--that there is no place to hide, and to try to get 
courageous people from all of the political parties and from 
the private sector to back down and think twice about getting 
out in front and championing democracy and elections, et 
cetera.
    I can't tell you that we have any information or leads at 
this time. We are pressing the HNP to investigate fully.
    Mr. Ballenger. One last question. Knowing that the drug 
trade is flowing rather thoroughly through Haiti, is there any 
likelihood that the drug traffic actually is influencing who is 
the government in Haiti at the present time, or can you tell?
    Ambassador Romero. It is very difficult to tell. I would 
have to say that it is likely that some drug money is going to 
the campaigns of some politicians. I can't tell you with any 
kind of specificity who they might be, and where it might be 
coming from. Certainly, we estimate about 13 percent of all of 
the cocaine that comes into the United States transits through 
Haiti. We don't believe that the Haitian government has done an 
adequate job with respect to cooperating on counter-narcotics, 
ergo, we did not certify them, or more accurately, decertify 
them and gave them a waiver. We continue to work with them; 
hopefully, we will see better performance over the next year. 
But in terms of drug corruption itself, it is one of those 
targets that in the best societies is really very shadowy.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Ballenger. Thank you.
    Chairman Gilman. Thank you, Mr. Ballenger. Mr. Payne.
    Mr. Payne. Thank you very much. When we were there in 
September, we met with Secretary of State Security, Bob Manuel, 
and we met with the Director of the Haitian National Police, 
Pierre Denize. As we know, on October 7 Bob Manuel resigned 
from his position.
    My question is, has the Secretary for State Security been 
filled? Is there currently a person in that position?
    Ambassador Romero. It has not been filled, and I think that 
that was a position that was created largely to better buttress 
and support the police. We would hope that it would be filled 
as soon as possible. Police Chief Denize is doing a yeoman's 
job in keeping that force apolitical, keeping them on the right 
track, investigating allegations, accusations of abuses. I 
believe that they have got 58 ex-policemen currently 
incarcerated, with many others having been separated for abuses 
and corruption. I believe that the last time I was here, one of 
the chief concerns of the Committee was pressure being placed 
to politicize the police. We are in very close contact with 
Police Chief Denize, and he has told us that the political 
pressure that was coming from various quarters seems to have 
abated, and he feels more comfortable in his job.
    Mr. Payne. I know of the October 14th attempted 
assassination on Jean Lemy. Now, when you try to put your 
finger on who is causing what, Lemy was a close associate of 
Aristide, and someone tried to kill him. Rumor has it that it 
is former President Aristide creating all the problems, but I 
can't imagine or guess why he would try to hurt one of his own 
top supporters.
    Is there any way--and it is easy to say, he is probably the 
most prominent person in the country, so anything that goes 
wrong, he is doing it--is there any way to put any credence to 
the fact that it is the Aristide forces that is creating the 
problem there, in general?
    Ambassador Romero. Congressman, I asked the same question 
that you just put to me a couple of days ago when this first 
happened, and I have to say that the answer that I got was that 
Mr. Dominique had spoken out so vociferously against 
corruption, against nepotism, even speaking out against 
members, or policies, of the Preval government, policies or 
actions of Famni Lavalas and Aristide as well as other parties, 
that it is very, very difficult to determine a political 
motivation since he was so courageous in speaking out publicly.
    Mr. Payne. The CEP will be meeting tomorrow. The 
elections--is there a date scheduled, did we hear a June date, 
or is that a target date? Has that been a fixed date, or is it 
something that will be discussed?
    Ambassador Romero. The June 12th date corresponds to 
another date, and that is January--and I am told that in the 
Haitian constitution those are two dates where new assemblies, 
two houses, can be seated. So, if you work back from that date 
and you determine that there has to be two rounds of elections 
held and the machinery put in place to hold them, with the 
balloting, the campaign workers, et cetera, then you begin to 
get a very strong sense that unless elections are held by the 
end of April 30th, that it would be exceedingly difficult to 
put all of that in place to have it take place and then to seat 
a Congress or to seat two houses of legislators by June 12.
    Mr. Payne. Still, December is the final election date, 
proposed date, for the election of the president, correct?
    Ambassador Romero. That is correct. It has been talked 
about, it hasn't been set, but, yes, indeed.
    Mr. Payne. Of course, one of the goals is certainly to 
ensure that the elections are held separately. It would be 
difficult to hold Presidential elections and elections for the 
parliament at the same time.
    Ambassador Romero. Mechanically, I am told it would be 
virtually impossible to hold all of those elections at one 
time, yes, sir.
    The other part of it that needs to be taken into 
consideration is that parties have spent so much already on 
campaign. There has been a lot of organizational work done. As 
I mentioned earlier, we have got election fever and the desires 
of many Haitians that if you were to postpone these elections 
to the fall, you would probably get many opposition parties who 
would boycott them, and I am worried about what would happen in 
terms of the credibility and validity of those elections if 
they were to be folded into one, even if you could have them 
all at one time.
    Chairman Gilman. The gentleman's time has expired. Mr. 
Hastings.
     Mr. Hastings. Thank you very much, Mr. Chairman, and, 
Ambassador Romero, thank you for all of your efforts.
    I would assume that the primary objective is to have free 
and fair and peaceful elections, am I correct?
    Ambassador Romero. That is correct.
    Mr. Hastings. I could make an argument for you, and I 
won't, that what you just said might very well not be the case. 
I believe personally that the elections could be held at the 
same time. While I do not favor that, I don't see any 
prohibition in putting one more line on an election and letting 
it go forward.
    Toward that end, what do you intend to say today to the 
Organization of American States Permanent Council specifically 
regarding the dangers to democracy?
    Ambassador Romero. Thank you. I think that is an excellent 
question, and if I could preview some of my remarks with the 
Committee, I would like to, and that is that from the moment 
that power was transferred from then President Aristide to 
President Preval, I think that there was a great deal of hope 
within Haiti that democratic institutions would begin to 
function; that there would be reforms put into place; that 
certainly economic development would go hand-in-hand with this 
political maturation process; certainly, that there would be 
problems and violence, politically motivated violence, would 
not end overnight, but that there would be more of a linear 
progression toward a full democracy in Haiti.
    Certainly, as Congressman Ballenger pointed out earlier, 
there was a raucous parliament where business was not conducted 
in an easy fashion, but there was progress and there was 
debate, which is absolutely crucial.
     But in February 1999, when President Preval abolished 
those bodies, and even before that in, I believe, April 1997 
where there were some serious concerns about the outcome of or 
the results of elections for those bodies, we were told--but, 
more importantly, the Haitian people were told--that this would 
lead to the creation or the re-establishment of an electoral 
tribunal to guide the country toward elections as soon as 
practicable.
    That has not happened but, more importantly, we see a 
political will that seemed to exist a year ago vanish on the 
part of the president. Certainly, there are specific problems 
associated with registering 4.2-plus million people, but most 
of those have been overcome with 4 million people registered, 
given ID's with pictures on them that is unprecedented in 
Haitian history, and the time is ripe for elections because of 
all of the other issues that I have mentioned in terms of the 
need for Haiti to have a functioning Congress.
    Certainly, you can roll it all over into one big election 
in the autumn. The country would suffer as a result. I am not 
so sure that fiscally this country can make it to the end of 
the year without some disbursements from the International 
Financial Institutions----
    Mr. Hastings. Is the international community prepared to 
withdraw added assistance financially?
    Ambassador Romero. Congressman Hastings, we do not provide 
direct assistance to the Haitian government. I can't speak for 
other governments, but I would have to say that those who are 
providing direct assistance would have to think twice about 
that assistance in light of the Permanent Council action in the 
OAS today.
    Mr. Hastings. Let me ask you then, specifically, and make a 
prediction for you. There won't be any election in time for a 
parliament to be constituted by June 12th. I make that 
prediction here, and I don't base it on anything other than 
past experience with the slippage that has gone on. That said, 
what are we going to do if there is no parliament on June 12th?
    Ambassador Romero. If there is no parliament by June 12th, 
I believe that what will happen will be the $400 million which 
would provide a great deal of relief for the Haitian people 
will probably disappear indefinitely. I believe that there 
would be an added chorus of hemispheric leaders who would be 
outraged at the direction that President Preval has decided to 
take in Haiti. I believe that alongside of all of this, there 
would be some actions that we, as the U.S. Government, would be 
forced to take in the matter.
    I do think that our policy would undergo a serious review. 
This would all take place in the context of a campaign and 
elections in the United States, which would probably not be 
helpful for bipartisan policy toward Haiti, but I would hope 
that would continue.
    I do believe that it is absolutely essential that we 
continue the aid programs that we have established and that 
have had a great deal of success for the Haitian people--the 
feeding programs, the infrastructure programs, the professional 
development programs in the police and the judiciary, the 
cooperation with the Coast Guard--all of those things, along 
with environmental programs, are extremely vital and have had 
very good success, and I would not advocate taking those off 
the table.
    Mr. Hastings. We do know that if we declare them to be 
removed from the Nation of democracies, I guess we would be 
calling them a ``non-democracy,'' and then when the boats float 
and they come to our shores, greater arguments can be made for 
those that arrive here, that they should be granted some status 
similar to other persons in the hemisphere who come from non-
democracies.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Hastings. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Thank you, Mr. 
Ambassador, also.
    Let me ask a question because, right on the line, I am 
concerned, when is a democracy not a democracy? When the people 
don't have the free will to vote, and it seems as though, from 
your testimony, the people of Haiti are excited, over 90 
percent of the people registered to vote. However, when I 
talked to some of the opposition candidates and when I have 
talked to some of the people, they are fearful for their lives 
if, in fact, there is an election and they go out to vote. With 
the Chief of the Haitian National Police and the U.N. 
International Civilian Police Mission pulling out, and the U.N. 
Civilian Mission in Haiti closed, if we have an election--you 
need an election that has some integrity--and if we just have 
an election and there is no integrity in the election, then we 
are still going to be wrought with problems afterwards because 
people are not going to respect the result of the elections.
    So I am wondering, as we are moving forward and preparing 
for elections and saying there is going to be one in June, what 
do we have on the ground or in place so that there can be 
integrity in the results of an election, if it is had, so that 
the people will feel that their will was had? What do we have 
on the ground--I think that Congressman Conyers asked--so that 
the people can go out to vote and feel safe when they are 
voting, because the opposition leaders that I have spoken with 
are fearing for their lives now as they sneak back over here 
and talk to Members of Congress, have talked to me.
    So, I wonder, first of all, what do we have there?
    Ambassador Romero. First of all, let me separate your 
question into two parts. One is whether there will be an honest 
vote count, and the other is security surrounding casting the 
ballot.
    On the second, let me answer that we have earmarked about 
$2 million from aid resources to support the security of the 
HNP during the balloting. Obviously, we are already engaged 
with purchasing trucks, vehicles, in order for them to get 
around to polling places and to do the best they can to secure 
areas, particularly those precincts which are in tense areas, 
if you will, of the country for election day.
    So, I think we will be as helpful as we possibly can with 
the HNP to get out and to support as best they can the security 
for these elections.
    In terms of casting ballots, we have worked very closely 
with the CEP through IFIS. We believe that there is a good 
process in place to secure that balloting, to ensure the 
secrecy of the ballots themselves. As I mentioned earlier, we 
have got 40,000 workers, or almost 40,000 workers, who have 
been trained and who will be trained, and I think they will be 
in place to secure the same.
    All of that having been said, when you look at the conduct 
of previous elections, there have been an enormous amount of 
international organizations on the scene with respect to the 
OAS and the United Nations, hundreds of folks relegated to OAS 
and U.N. missions, hundreds of observers on the ground, U.S. 
military on the ground, and all of that is gone. The reason why 
it is gone is because we and you all have determined that it 
was time to pull Haiti off of these life supports, and to get 
the patient to walk on its own. That is always going to 
engender a great deal of uncertainty; but we believe that the 
time is ripe to have these elections, conducted principally and 
exclusively by Haitians.
    Mr. Meeks. Mr. Hastings might have alluded to it, and I am 
just trying to get edification for myself, I believe that the 
U.S. and the International Development Banks and other agencies 
had pledged to provide approximately somewhere in the area of 
$2 billion in assistance by 1999. What is the status of that 
money and the disbursement of that money? Is it contingent upon 
the elections, or what is the status?
    Ambassador Romero. I think that we know about $400 million 
has been parked out there since 1997 or thereabouts. That is 
still waiting, mostly World Bank and IDB money, and it is 
contingent upon a Congress being seated. To us, it is 
unconscionable that this money can't do the right things in 
Haiti to help the Haitian people until there is a Congress 
seated.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Meeks.
    We are pleased to have been joined today by the 
distinguished Chairman of our Intelligence Committee, the 
gentleman from Florida, who has been a long-time advocate of 
improving the situation in Haiti, Mr. Goss.
    Mr. Goss. Thank you, Mr. Chairman. Ambassador, thank you 
for being here.
    I have read about the recent organized violent street 
protests and political assassinations that we have all seen. 
Obviously, they represent a very serious and alarming 
escalation of anti-election violence. They have the appearance 
of being turned on and turned off by people who are able to do 
that.
    My first question is, did our Embassy in Port-au-Prince 
warn you that such an escalation was imminent at anytime in the 
past month or so, and second, did our Embassy make any policy 
recommendations to you about what to do if we did have 
increasing violence and, third, what were they and what were 
you to do about them if, in fact, the violence came to pass, as 
it did?
    Ambassador Romero. The Embassy, to my best recollection, 
reported that it is likely that as we move toward either the 
date of elections or setting a date for elections, that there 
would be likely increased violence. That has been a recurring 
pattern in Haiti for a long, long time.
    I don't recall--perhaps my colleagues can correct me--but I 
don't recall that the Embassy reported any specific targets or 
likely targets of that violence. Certainly, our own Embassy and 
our own security posture of our folks down there is 
continuously under review, and I believe that they have taken 
the appropriate measures over the last couple of weeks to 
ensure, to the extent possible, that U.S. officials and 
Haitians connected with the Embassy are not harmed.
    That having been said, there was an incident, I believe 
last week, where one of our vehicles passing through one of the 
neighborhoods had rocks and bottles and other things thrown at 
it.
    Mr. Goss. Other than protection, did the Embassy make any 
policy recommendations to you about how to proceed with this 
escalation of violence?
    Ambassador Romero. I don't recall any specific policy 
recommendations, Congressman.
    Mr. Goss. Is it the Administration's current assessment 
that Aristide seeks to be president for life?
    Ambassador Romero. Aristide is not president now.
    Mr. Goss. I didn't ask that. Is it your assessment that he 
seeks to be president for life and get some advantage perhaps 
out of a one-election versus a two-elections process?
    Ambassador Romero. I think that ex-President Aristide has 
been forthcoming with us, at least rhetorically, in saying that 
he is foursquare in favor of elections, and before----
    Mr. Goss. But not elections in June, he hasn't been 
particularly helpful about that.
    Ambassador Romero. No, he has told us that he would be in 
favor of elections in June. Now, what we have said is, fine, go 
out and support it publicly and press President Preval for 
those same elections. Those are steps that he has not yet 
taken.
    We can extrapolate why he has not matched deed with word. 
This has been very troubling for us. There have been, 
particularly on the violent side, elements of the Famni Lavalas 
Party, particularly the youth elements of that party who have 
been responsible for some of the latest demonstrations that 
resulted in the burning of a market and tires, et cetera, et 
cetera.
    Mr. Goss. Would you characterize that former President 
Aristide's conduct has been helpful in getting the elections 
accomplished by the CEP in order for the June deadline?
    Ambassador Romero. I can't definitively say that they have 
been helpful or harmful. I do know that his speaking out 
publicly and his calling President Preval would be in the 
helpful category. That has not yet taken place.
    Mr. Goss. Do we have any plans in the Administration at 
this point to reactivate Guantanamo Bay to be able to handle 
the refugees in the event the violence continues and the 
elections do not come to pass in June?
    Ambassador Romero. I can't answer that, Congressman. I 
don't know of any contingency planning that has been underway. 
My understanding is that Guantanamo is basically kept at a 
fairly high readiness rate in terms of refugees generally, but 
I can't really explain to you today where they might be on 
that. But if you would like, I can look into it and get back to 
you.
    Mr. Goss. It would occur to me that the Administration 
should have contingency plans if things continue to deteriorate 
in Haiti, because that seems to be the pattern. Is that a 
reasonable assumption?
    Ambassador Romero. I can only say it is a reasonable 
assumption. I don't believe that we are on the cusp of seeing 
boat people taking to boats and rafts again. Certainly, the 
situation is frustrating and disquieting, but I don't see a 
wave of humanity waiting in the cusp to leave Haiti.
    Mr. Goss. How dangerous is it in Haiti today? If an 
American tourist wanted to go there, or an Observation Team 
wanted to go down and look into the CEP matters officially, 
that range of conduct. How dangerous would it be in Haiti 
today?
    Ambassador Romero. My understanding is that the general 
street crime and general criminality remains pretty much the 
same, at unacceptably high levels. I haven't seen that change. 
Certainly, the assassinations of a husband and wife political 
team in Petit Goave was very troubling. That happened over the 
weekend, and the assassination, or the murder, of Jean 
Dominique on Monday--again, very troubling--we do not see this 
as the beginning of a wave of political assassinations. It 
would be too premature, at best, to be in a position to make 
that kind of analysis.
    Mr. Goss. I was not in the room, but I am advised that in 
your earlier testimony you said that you have no feeling that 
there is any official government intimidation that is holding 
back the CEP in their efforts to get on with the election 
process. Is that your assessment?
    Ambassador Romero. I don't see government intimidation. In 
fact, the CEP and President Preval have held several meetings 
on this issue, so there is communication. Unfortunately, the 
communication hasn't resulted in a unanimity of views on 
holding these elections, but I haven't seen reports of 
government intimidation of the CEP.
    Mr. Goss. Thank you very much, Mr. Chairman.
    Chairman Gilman. I want to thank Chairman Goss for 
appearing today and taking part and participating in our 
testimony. Chairman Goss has been a long-time advocate of 
making certain we have good policy in Haiti.
    Do you have a few more moments you can spare?
    Ambassador Romero. Mr. Chairman, I have just been passed a 
note that the Haitian Permanent Representative to the OAS, with 
his colleagues, have succeeded in putting off the debate on 
Haiti for 1 day, so it will not take place until tomorrow 
afternoon.
    Chairman Gilman. All right. That is helpful to us. We will 
go for another round of questions.
    Mr. Romero, Mr. Secretary, I want to make sure I fully 
understand your testimony about what may have happened with 
regard to the murder of Jean Dominique and his colleagues.
    Is it really true that the U.S.--that our government--has 
no information at all about who may have killed him?
    Ambassador Romero. As of this morning, Mr. Chairman, we 
didn't. We are pressing the investigative unit of the HNP to 
get to the bottom of it. As I mentioned earlier, there are so 
many people that he discussed and talked about so many issues 
that he made public with respect to corruption and abuse of 
power, that it would be hard to say or to pin it to any 
particular group of people, at least at this point. But we are 
hoping that the HNP continues its investigation, does its due 
diligence, and gets to the bottom of it.
    Chairman Gilman. Is there any suspicion that one of the 
security advisors to former President Aristide or any other 
prominent political figure in Haiti may have been a 
perpetrator?
    Ambassador Romero. Again, Mr. Chairman, we don't have 
specific information. Certainly, Mr. Dominique spoke out 
against specific individuals who have been associated with the 
FL, the Famni Lavalas Party, to include the gentleman that you 
mentioned, Danny Touissaint.
    Chairman Gilman. Mr. Secretary, we have received reports 
that the Secretary General is concerned about a rapid 
deterioration of the situation and is considering removing the 
U.N. personnel out of Haiti. Is the Secretary General using the 
Administration's delay in delivering our U.S. contribution to 
this mission for him to make a decision to ``cut and run'' from 
Haiti?
    Ambassador Romero. Certainly, the issue of financing for 
the new entity MICAH is a subject of very deep concern to this 
Administration. We have been able to gather enough money to 
keep it going at a lower rate, with fewer people, than had been 
anticipated. We have, certainly, money frozen at this 
particular point for the financing of that. I think it would be 
a big mistake, particularly since we are headed into some 
turbulent times in Haiti, not to finance MICAH at an 
appropriate level.
    We were looking at a level of about $18 million. As you 
know, we provide about 80 percent of the voluntary financing 
for it, and we have had the notification up before this body 
and the Senate for several weeks now, and we are still waiting 
for the green light to go ahead.
    Chairman Gilman. Thank you, Mr. Secretary. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. My own experience in 
Haiti leads me to the conclusion that nothing is ever really 
clear and that there are many shadows in Haiti. I, for one, 
find myself always being restrained when I hear rumors and 
speculations because I have great doubt as to their legitimacy. 
It appears that there are more than multiple agendas within 
Haiti that would disseminate various rumors and present 
different theories. There are plots and subplots and plots to 
plots that may or may not exist, and I really don't think there 
is any advantage in terms of that kind of speculation.
    But I guess the fundamental question here is, in terms of 
the holding of the elections and the frustration I think that 
we all share in terms of those elections being held, and I 
think it is implicit in the questions that have been asked, is 
the responsibility for the delay predicated on genuine concern 
about logistics, infrastructure and resources, or is it lack of 
will for whatever reasons and motives? I think that is the crux 
really of the question because, as my friend from New York, Mr. 
Meeks, asked, what is happening to all that money out there, 
the one fact that we do know is that without a government--and 
the predicate for a legitimate government is the conduct of 
fair and free elections--and without that, the suffering that 
the people of Haiti have endured will never, never decline or 
diminish. That is why the need to have these elections has to 
be paramount because it is the sine qua non, it is the 
essential ingredient in attempting to advance an agenda that I 
think we all share--I know we all share--in terms of raising 
the plight of the people of Haiti from the desperate situation 
that they endure.
    As I said, I keep an open mind as to the rumors that I 
hear; but I think one fact that we know as of right now is that 
there is not a date certain for the election, and that as time 
continues the only conclusion that we can reach is, whoever is 
responsible, that we do not have a democratic state.
    There comes a point in time when it is ``in the eye of the 
beholder,'' I guess, but we don't have a democracy, and I think 
the consequences for the society for the people are so severe 
that it is a great tragedy. It is a great tragedy.
    What I can't understand is that two months ago when I was 
there, there were three million people that were registered. 
Now there are four million people that are registered. That is 
an incredible success, one of the few bright lights in terms of 
what we see coming from Haiti. One could just feel the 
enthusiasm and the excitement--and you are absolutely right, 
Mr. Ambassador--there was excitement and, yes, there are 
incidents of violence. Yet, I daresay, in many other societies 
we have seen much more significant violence; but to continue to 
not provide a date certain, I have to presume, is creating such 
frustration that we lose the intensity of commitment that I 
believe that civil society, society as a whole, and, yes, all 
political parties, have to this series of elections. I don't 
know whether it is political will.
    Much has been said about the ex-president and President 
Preval. This most recent murder, we don't know whether it is an 
assassination. Hell, the murder occurred 24 hours ago. They 
don't have the capacity to even conduct a preliminary 
investigation. Let us be honest, they don't have those kind of 
resources. It is all guesswork. But my understanding is that he 
was known as a Special Advisor to Preval--Preval, who has 
affiliated himself with the Famni Lavalas--and those who 
suggest it is not in the interest of the ex-president to have 
these elections. When we were there, Mr. Ambassador, we sat 
down with a number of individuals who were respected by our 
government, who indicated that the polls established the Famni 
Lavalas was substantially ahead if there were to be an 
election.
    So, I guess I don't know what is happening, but I know 
this: if we don't have an election, if we do not have a date 
certain, I believe it is clear that the Organization of 
American States has a responsibility to declare Haiti a 
nondemocracy, whatever those consequences are, because we can't 
continue this charade.
    Chairman Gilman. The gentleman's time has expired. Did you 
want to comment, Mr. Romero?
    Ambassador Romero. Congressman, I couldn't agree with you 
more. There has to come a time when you have to put the 
interest of the Haiti people and their dreams of democracy and 
development on the first order of business, and that is what we 
are trying to do through the OAS. Hopefully it will have the 
salutary effect of opening President Preval's eyes to the fact 
that his people yearn for the essential democratic exercise of 
elections.
    For me, it really is so difficult to accept and believe 
that he, as President, doesn't see that as the foremost, most 
fundamental positive development in Haiti when in previous 
elections we were talking about a voter turnout of about 15 
percent, and something that he, concerned with legacy now in 
presumably his last year in office, should be more as opposed 
to less concerned about. But if you go back and you look at it 
from the vantage point of last year, this is a President who 
essentially created the CEP in the image that he wanted it to 
be, and then proceeded to deny them the kind of executive 
support that they needed to get the job done. So, I am not sure 
about where President Preval is going. Hopefully with the 
events of this hearing, some meetings that we will be having 
and the OAS, this will begin to turn him around.
    Chairman Gilman. Mr. Secretary, we have been called to the 
Floor for a vote and may have to wind up shortly. Before 
calling on our last Member who hasn't had an opportunity to 
speak, I want to make clear for the record that I do not have 
any hold on the money you intend to obligate for the U.N. MICAH 
mission in Haiti, nor does Senator Helms' staff, which now 
informs me that they do not have any hold on these funds for 
the United Nations. So, I want to make the record clear with 
regard to that. Mr. Sherman.
    Mr. Sherman. Mr. Chairman, before I focus on the purpose of 
these hearings, let me compliment you on the improved hearing 
room and what appear to be some improved technological devices. 
One thing that you may have already implemented but, if not, I 
would highly recommend it, is that there is a service that will 
put on the WorldWideWeb an audio of everything that goes on at 
public hearings in this room. That would allow people concerned 
with Haiti, whether they be in San Diego or in Maine, to hear 
these hearings even if C-Span chooses not to broadcast them and 
even if they can't afford a flight here to Washington and a 
chance to sit on one of our very comfortable chairs in the 
audience.
    Chairman Gilman. Thank you for your suggestion, Mr. 
Sherman.
    Mr. Sherman. I think the testimony about democracy in Haiti 
and the questions from my colleagues have been excellent and 
have focused on this very important issue. So I would like to 
focus on another related issue, and it is an issue where I 
doubt the Ambassador has the answers, so I will ask him to 
submit them for the record. The fact that I don't expect him to 
have the answers reflects my understanding, and that is when it 
comes to burden-sharing, there isn't that much concern in the 
State Department. This world has a number of rich countries 
around the world, from Vienna to Tokyo by way of Washington. 
There are many who live in relative prosperity. In many parts 
of the world there are great expenses in providing security and 
somewhat less money is being spent on economic aid. But that 
whole package represents what rich countries and stable 
countries are doing for those in less fortunate circumstances.
    I would like the Ambassador to furnish for the record a 
comparison of all the money we have spent on Haiti--rather, all 
the money that has been spent by the European Union on Haiti in 
the last 5 years for economic aid and for any contribution to 
military security or physical security of the people there. 
Compare that to the amount we have spent in Bosnia and Kosovo, 
because we live in a world where if something happens on our 
doorstep we are supposed to assume 100-percent of the cost; and 
if something happens on the doorstep of an area of the world--
namely, the European Union--that is larger and richer and more 
populace than we are, then we are also supposed to assume the 
lion's share of the load.
    So, I would like to compare what the Europeans have done 
for Haiti in terms of dollars, to the total cost not only of 
our economic aid but especially of our military efforts in the 
former Yugoslavia. Likewise, Japan also lives in an area where 
there are needs at its doorstep--namely, the security needs, 
rather than the economic development needs, of South Korea. I 
would like you to provide a comparison of the total amount 
Japan has contributed to meeting the security needs and 
economic needs of the people of Haiti to the total----
    Chairman Gilman. Mr. Sherman, you have 6 minutes left to 
get to the vote, to the Floor to vote, so please be brief.
    Mr. Sherman [continuing]. Compared to the total amount we 
spend providing security for the people of South Korea and the 
people of Japan. If you can furnish that, I think it will 
illustrate the fact that when it comes to burden-sharing, it is 
100 percent our responsibility when it is here, and mostly our 
responsibility when it is there. Thank you. We have a vote.
    Ambassador Romero. Thank you. I will make sure that we 
provide that. Thank you, Congressman.
    Chairman Gilman. Thank you, Mr. Secretary, for taking the 
time today, and we regret that a vote is coming up shortly. The 
meeting is adjourned.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             April 5, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T6166.001
    
    [GRAPHIC] [TIFF OMITTED] T6166.002
    
    [GRAPHIC] [TIFF OMITTED] T6166.003
    
    [GRAPHIC] [TIFF OMITTED] T6166.004
    
    [GRAPHIC] [TIFF OMITTED] T6166.005
    
    [GRAPHIC] [TIFF OMITTED] T6166.006
    
    [GRAPHIC] [TIFF OMITTED] T6166.007
    
    [GRAPHIC] [TIFF OMITTED] T6166.008
    
    [GRAPHIC] [TIFF OMITTED] T6166.009
    
    [GRAPHIC] [TIFF OMITTED] T6166.010
    
    [GRAPHIC] [TIFF OMITTED] T6166.011
    
    [GRAPHIC] [TIFF OMITTED] T6166.012
    
    [GRAPHIC] [TIFF OMITTED] T6166.013
    

</pre></body></html>
